APPENDIX

-15-

Petition for a Writ of Certiorari

NOTE: This disposition is nonprecedential.

finite!) States Court of SUppeafe
for tfjc jfetneral Circuit
CHERRIE A. HOLLIE,
Claimant-Appellant
v.
ROBERT WILKIE, SECRETARY OF VETERANS
AFFAIRS,
Respondent-Appellee
2020-1486
Appeal from the United States Court of Appeals for
Veterans Claims in No. 19-1265, Chief Judge Margaret C.
Bartley.
Decided: June 3, 2020
CHERRIE A. HOLLIE, Oakland, CA, pro se.
DAVID Peh:lke, Commercial Litigation Branch, Civil
Division, United States Department of Justice, Washing­
ton, DC, for respondent-appellee. Also represented by
Joseph H. Hunt, Claudia Burke, Robert Edward
Kirschman, Jr.

/•/
/

2

HOLLIE v. WILKIE

Before NEWMAN, LOURIE, and SCHALL, Circuit Judges.
Per Curiam.

Decision
Cherrie A. Hollie appeals the November 27, 2019 deci­
sion of the United States Court of Appeals for Veterans
Claims (“Veterans Court”) in Hollie v. Wilkie, No. 19-1265,
2019 WL 6334692 (Vet. App. Nov. 27, 2019). In that deci­
sion, the Veterans Court affirmed the December 27, 2018
decision of the Board of Veterans Appeals (“Board”) that
denied Ms. Hollie recognition as the surviving spouse of
veteran Charlie Hollie for purposes of entitlement to survi­
vor benefits. Suppl. App. 8. For the reasons stated below,
we dismiss for lack of jurisdiction.
Discussion
I.
Mr. Hollie served on active duty in the U.S. Marine
Corps from June of 1960 to June of 1964. He served in the
U.S. Navy from August of 1964 to August of 1968. The Hol­
lies married in July of 1970 and divorced in April of 1976.
Mr. Hollie died in March of 2009. His death certificate
listed his marital status as divorced. Hollie, 2019 WL
6334692 at *1.
In February of 2015, Ms. Hollie filed a claim for survi­
vor benefits. A VA regional office (“RO”) in due course de­
nied the claim. The RO stated that Ms. Hollie could not
qualify for benefits as a surviving spouse because, at the
time of Mr. Hollie’s death, she and Mr. Hollie were di­
vorced. Id.
Following the RO’s decision, Ms. Hollie appealed to the
Board. As noted, in its December 27, 2019 decision, the
Board denied Ms. Hollie’s claim for survivor benefits. The
Board did so on the ground that Ms. Hollie did not qualify
as a “surviving spouse” under 38 C.F.R. § 3.50(b). That reg­
ulation defines a “surviving spouse” for purposes of death

3

HOLLIE v. WILKIE

benefits as “the spouse of the veteran at the time of the vet­
eran’s death.” 38 C.F.R. § 3.50(b). Since Ms. Hollie was
divorced from Mr. Hollie at the time of his death, she could
not satisfy the regulation’s requirement. Suppl. App. 9-11.
As noted, the Veterans Court affirmed the decision of
the Board. The court stated that, “[i]n this case, the law is
dispositive and requires that a person be married to a vet­
eran at the time of the veteran’s death to qualify as a sur­
viving spouse for the purposes of [dependency and
indemnity compensation (“DIC”)] and [a] survivor death
pension.” Hollie, 2019 WL 6334692 at *3. The court noted
Ms. Hollie’s argument that she met the requirements for
benefits under 38 C.F.R. § 3.54 because she was married to
Mr. Hollie for over a year and they had a child during their
marriage. Id. at *2. As the court explained, however,
§ 3.54 applies only to those who qualify as a “surviving
spouse.” Id. at **2, 4. The court concluded: “[T]he Board
did not clearly err and provided adequate reasons or bases
for its determination that Ms. Hollie does not qualify as a
surviving spouse for DIC and survivor death pension pur­
poses.” Id. at *4. Following the Veterans Court’s decision,
Ms. Hollie appealed to us.

M

I*

P

ii.
Our ability to review a decision of the Veterans Court
is limited. Scott v. Wilkie, 920 F.3d 1375, 1377-78 (Fed.
Cir. 2019). “Pursuant to 38 U.S.C. § 7292(a), we may re­
view the validity of a Veterans Court’s decision on ‘a rule
of law or of any statute or regulation ... or any interpreta­
tion thereof’ that the Veterans Court relied on in making
its decision.” Id. (omission in original). “Unless the case
presents a constitutional issue, we ‘may not review (A) a
challenge to a factual determination, or (B) a challenge to
a law or regulation as applied to the facts of a particular
case.’” Id. (citing 38 U.S.C. § 7292(d)(2)).

4

HOLLIE v. WILKIE

III.
As seen, the Board determined that Ms. Hollie is not
entitled to benefits because she does not qualify as a “sur­
viving spouse” under 38 C.F.R. § 3.50(b). On appeal, Ms.
Hollie does not challenge the validity of § 3.50(b). Neither
does she argue that, in affirming the Board’s decision, the
Veterans Court erred in interpreting the regulation, and
she does not raise a constitutional issue. Rather, as she did
before both the Board and the Veterans Court, she main­
tains her argument for benefits under 38 C.F.R. § 3.54 and
advances various equitable arguments as to why she
should receive survivor benefits. While we are sympathetic
to Ms. Hollie’s circumstances, we are unable to consider her
arguments. That is because they all, in one way or another,
challenge the Veterans Court’s application of the law, in
this case 38 C.F.R. § 3.50(b), to the facts of her case. As
noted above, the statute that gives us the power to review
decisions of the Veterans Court bars us from considering
the kinds of arguments that Ms. Hollie is making. For this
reason, the only course available to us is to dismiss Ms.
Hollie’s appeal for lack of jurisdiction.
Conclusion
For the foregoing reasons, Ms. Hollie’s appeal is dis­
missed for lack of jurisdiction.
DISMISSED
Costs
No costs.

r

N

Designatedfor electronic publication only
UNITED STATES COURT OF APPEALS FOR VETERANS CLAIMS
•'“X

%

No. 19-1265

V'

Cherrie A. Hollie, Appellant,

v.
Robert L. Wilkie,
Secretary of Veterans Affairs, Appellee.
Before BARTLEY, Judge.
MEMORANDUM DECISION
Note: Pursuant to U.S. Vet. App. R. 30(a),
this action may not be cited as precedent.
BARTLEY, Judge: Cherrie A. Hollie appeals a December 27, 2018, Board of Veterans'
Appeals (Board) decision that denied her recognition as the surviving spouse of veteran Charlie F.
Hollie for the purpose of entitlement to survivor benefits. Record (R.) at 3-6. For the reasons that
follow, the Court will affirm the December 2018 decision.
I. FACTS
Mr. Hollie served on active duty in the U.S. Marine Corps from June 1960 to June 1964
and in the U.S. Navy from August 1964 to August 1968.1 R. at 349; see R. at 209-212, 389. In
July 1970, he married Ms. Hollie, R. at 960, and they divorced in April 1976, R. at 343-45. Mr.
Hollie died in March 2009, and the death certificate listed his marital status as divorced. R. at 374.
In February 2015, Ms. Hollie filed a claim for survivor benefits, reporting that she was
forced to divorce Mr. Hollie because of his domestic violence. R. at 331 -36. A VA regional office
(RO) denied, inter alia, dependency and indemnity compensation (DIC) and death pension in an

1

J-

The Board decision on appeal did not acknowledge Mr. Hollie's first period of service. See R. at 3.

October 2015 decision, citing her divorce from Mr. Hollie as the reason she could not be
recognized as his surviving spouse. R. at 316-11?
In June 2016 correspondence, Ms. Hollie asserted her belief that she qualifies as Mr.

'*

Hollie's surviving spouse because neither of them remarried and they had a son. R. at 306. She
also described episodes of violence and misconduct from Mr. Hollie during and after their
marriage. R. at 306-08. In September 2016, she testified before a decision review officer at the
RO, further describing Mr. Hollie's actions, as well as her disabilities that developed as a result.
R. at 272-85. In December 2016, the RO issued a Statement of the Case, R. at 138-74, and Ms.
Hollie perfected her appeal, R. at 73-75.3 With her Substantive Appeal, Ms. Hollie reiterated her
contention that she qualified as Mr. Hollie's surviving spouse because they had a son, she did not
remarry, and the divorce was caused by Mr. Hollie's abusive behavior. Id.
At a September 2018 Board hearing, Ms. Hollie testified further as to Mr. Hollie's actions
that led to their divorce. R. at 19-35. In conjunction with her testimony, she submitted photos
taken before her marriage, R. at 9, 11; wedding photos, R. at 10; a November 2017 Social Security
Administration (SSA) letter documenting her assertion that her marriage to Mr. Hollie "ended in
death," R. at 14; and a statement that she had submitted to VA her 1968 college entry transcript,
R. at 16.
'

In December 2018, the Board issued the decision on appeal. R. at 3-6. The Board noted

Ms. Hollie's argument that she met the survivor pension benefits requirements outlined in
38 C.F.R. § 3.54 but explained that she had not met the threshold 38 C.F.R. § 3.50(b) requirement
that a veteran and the surviving spouse be married at the time of the veteran's death. R. at 5. The
Board found that Ms. and Mr. Hollie were not married at the time of his death based on their
divorce in April 1976 and, therefore, that Ms. Hollie "cannot be recognized as [Mr. Hollie's]
surviving spouse for survivor benefits purposes." Id. The Board further explained that it was not

2 The RO also denied accrued benefits because Mr. Hollie was not service connected for any disabilities at
the time of his death and there were no claims pending at the time of his death for which benefits were owed. Id. It
does not appear that Ms. Hollie appealed the denial of accrued benefits and she does not assert otherwise on appeal.
3 It appears that Ms. Hollie's Substantive Appeal was filed in July 2017 and was untimely under the governing
regulation then in effect. See 38 C.F.R. § 20.302(b)(1) (2017). However, because the 60-day period is not
jurisdictional, VA may "explicitly or implicitly" waive any issue as to timeliness. Percy v. Shinseki, 23 Vet.App. 37,
45 (2009). By adjudicating the matter on appeal, the Board implicitly waived the timeliness issue, a favorable finding
the Court will not disturb. See Medrano v. Nicholson, 21 Vet.App. 165, 170 (2007).

2

r^\

r"

ii
r>.

r*

authorized by statute to render a decision based in equity. R. at 6. This appeal followed. While
this appeal was pending, Ms. Hollie filed a motion for oral argument.
II. JURISDICTION AND STANDARD OF REVIEW
Ms. Hollie's appeal is timely and the Court has jurisdiction to review the December 2018
Board decision pursuant to 38 U.S.C. §§ 7252(a) and 7266(a).

Single-judge disposition is

appropriate in this case. See Frankel v. Derwinski, 1 Vet.App. 23, 25-26 (1990).
The Board's determination of whether a claimant qualifies as a surviving spouse is a factual
question the Court reviews under the "clearly erroneous" standard of review set forth in 38 U.S.C.
§ 7261(a)(4); see Dedicatoriav. Brown, 8 Vet.App. 441,443 (1995). "A factual finding 'is "clearly
erroneous" when although there is evidence to support it, the reviewing court on the entire evidence
is left with the definite and firm conviction that a mistake has been committed.'" Hersey v.
Derwinski, 2 Vet.App. 91, 94 (1992) (quoting United States v. U.S. Gypsum Co., 333 U.S. 364,
395 (1948)).
With any finding on a material issue of fact and law presented on the record, the Board
must support its factual determinations with an adequate statement of reasons or bases that enables
the claimant to understand the precise basis for that determination and facilitates review in this
Court. 38 U.S.C. § 7104(d)(1); Gilbert v. Derwinski, 1 Vet.App. 49, 57 (1990). To comply with
this requirement, the Board must analyze the credibility and probative value of evidence, account
for evidence that it finds persuasive or unpersuasive, and provide reasons for its rejection of
material evidence favorable to the claimant. Caluza v. Brown, 7 Vet.App. 498, 506 (1995), affd
per curiam, 78 F.3d 604 (Fed. Cir. 1996) (table).
in. ANALYSIS
A. Recognition as Surviving Spouse
Ms. Hollie argues in her informal brief that, under 38 C.F.R. § 3.54, she is entitled to
recognition as Mr. Hollie's surviving spouse because they were married for over a year and their
child was bom during their marriage. Appellant's Informal Brief (Br.) at 4-6. She asserts that,
despite the divorce, she still considered herself married to Mr. Hollie, citing as support the
November 2017 SSA letter confirming her description of the marriage as ending with his death.
Id. at 5. She further contends that the Board failed to consider her photographs, which she
3

>

‘

acknowledges are part of the record, and her 1968 college entry transcript, which she asserts is
missing. Id. at 3. Finally, she asserts that she is "entitled to be awarded a survivor's pension as a
matter of equity," id at 6, and in accordance with the benefit of the doubt doctrine, R. at 8.
The Secretary responds that Ms. Hollie does not dispute that she and the veteran were
divorced at the time of his death, and he contends that the divorce prevents VA from recognizing
her as a surviving spouse for survivor benefits purposes. Secretary's Br. at 3-5. The Secretary
further notes that neither the Board nor the Court is empowered to act in equity, id. at 5-6, and that,
even assuming that the record is incomplete because of VA error, Ms. Hollie has not demonstrated
that the error prejudiced the Board's surviving spouse determination given the record evidence of
the Hollie's divorce, id. at 6-7.
DIC benefits may be awarded to a veteran's "surviving spouse" if the veteran died from a
service-connected or compensable disability. 38 U.S.C. § 1310. Additionally, VA may award
death pension to surviving spouses for non-service-connected deaths of veterans receiving
disability compensation. 38 U.S.C. § 1541(a).
A surviving spouse is a person (1) validly married to the veteran at the time of the veteran's
death, (2) "who lived with the veteran continuously from the date of marriage to the date of the
veteran's death (except where there was a separation which was due to the misconduct of, or
procured by, the veteran without the fault of the spouse)," and (3) "who has not remarried or .. .
lived with another person and held himself or herself out openly to the public to be the spouse of
such other person." 38 U.S.C. § 101(3); see 38 C.F.R. § 3.50(b) (2019); see also 38 C.F.R.
§ 3.54(c) (2019) (imposing additional limitations not implicated here).
In the December 2018 decision on appeal, the Board explained that the law requires that a
person be married to a veteran at the time of the veteran's death to qualify as a surviving spouse.
R. at 5. The Board addressed Ms. Hollie's assertion that the divorce resulted from Mr. Hollie's
abusive behavior but found that she does not dispute the validity of the divorce and so cannot
qualify as a surviving spouse. R. at 5; see Haynes v. McDonald, 785 F.3d 614, 616 (Fed. Cir.
2015) (rejecting the argument that the married-at-the-time-of-death requirement should be excused
because divorce was precipitated by the veteran's abusiveness); cf. 38 U.S.C. § 101(3) (noting an
exception to the continuous cohabitation requirement when a separation (not divorce) was due to
the misconduct of, or procured by, the veteran without fault of the spouse). The Board also
addressed Ms. Hollie's contention that she meets the requirements for benefits under § 3.54 but
4

r*--

explained that the "status of surviving spouse is a preliminary question" to be resolved before
applying § 3.54 requirements, which apply only to those who have already been recognized as a
surviving spouse. R. at 5. In other words, § 3.54 does not provide an alternate mechanism for
recognition as a surviving spouse and, therefore, is inapplicable here.
Ultimately, the Board found that Ms. and Mr. Hollie were not married at the time of his
death. R. at 5. Ms. Hollie does not dispute this finding. A review of the record confirms the
Board's characterization. See R. at 343-45 (April 1976 divorce decree),. 374 (March 2009 death
certificate listing Mr. Hollie as divorced at the time of his death). In this case, the law is dispositive
and requires that a person be married to a veteran at the time of the veteran’s death to qualify as a
surviving spouse for the purposes of DIC and survivor death pension. This Court cannot contradict
or ignore requirements for entitlement to benefits set forth by Congress. See Moffitt v. Brown,
10 Vet.App.214, 225 (1997); see also Boyer v. West, 210 F.3d 1351,1356 (Fed. Cir. 2000)(Courts
"can only interpret the statutes that are enacted by the Congress ... [and] are simply powerless to
amend any statutory provision sua sponte."); Fritz v. Nicholson, 20 Vet.App. 507, 511 (2006)
(holding that this Court cannot mandate an award of benefits contrary to rules provided by Federal
law).
The Court sympathizes with Ms. Hollie; however, the Board properly found that the
evidence of record reflects, and she does not dispute, that she and Mr. Hollie obtained a valid
divorce and did not thereafter remarry. Her own perception that she remained Mr. Hollie's wife,
including her representation to SSA that their marriage ended in his death, does not change the
requirement for marriage at the time of the veteran's death under 3 8 U.S.C. § 101(3). See 38 C.F.R.
§ 3.50(b). Furthermore, to the extent that she asserts that the Board failed to discuss her
photographs or acquire her college entry transcript, she has not explained how those items, which
document her life through the date of her marriage to Mr. Hollie, are evidence that she qualifies as
his surviving spouse for the purpose of VA benefits.4 See 38 U.S.C. § 7261(b)(2) (requiring the
Court to "take due account of the rule of prejudicial error"); Shinseki v. Sanders, 556 U.S. 396,
409 (2009) (explaining that "the burden of showing that an error is harmful normally falls upon
the party attacking the agency's determination"); Hilkertv. West, 12 Vet.App. 145, 151 (1999) (en

4 To the extent that her argument could be construed as raising a dispute with the content of the record before
the agency, the time to raise such a dispute has passed. See U.S. Vet. App. R. 10(b).

5

banc) (appellant bears the burden of demonstrating error on appeal), affdper curiam, 232 F.3d.
908 (Fed. Cir. 2000) (table).
The Court acknowledges Ms. Hollie's argument that she is entitled to relief on an equitable
basis and that the Secretary has the authority to grant such relief, and that the benefit of the doubt
doctrine should be applied to award her benefits. Appellant's Informal Br. at 6-8; Reply Br. at 48. Regarding her equity argument, the Secretary's authority to grant relief based on the principles
of equity is separate and distinct from his authority to determine entitlement to benefits under the
law. Darrow v. Derwinski, 2 Vet.App. 303, 305 (1992). The authority to determine entitlement
to benefits is exercised pursuant to 38 U.S.C. § 511(a) and has been delegated to the ROs, subject
to review by the Board, and requires a determination of "whether the claimant is legally and
factually eligible to receive the benefit claimed." Id. at 304. Yet, Congress, in authorizing the
Secretary to grant equitable relief, committed such matters to the sole discretion of the Secretary
pursuant to 38 U.S.C. § 503. Id. at 306. As Darrow makes clear, proceedings before the RO and
the Board pursuant to section 511(a) are separate and distinct from the pursuit of equitable relief
from the Secretary pursuant to section 503. Thus, the Court cannot grant or otherwise decide an
issue as to the Secretary's equitable relief power. Ms. Hollie remains free, however, to petition the
Secretary directly for equitable relief. See Eicher v. Shulkin, 29 Vet.App. 57, 65 (2017).
As for Ms. Hollie's benefit of the doubt argument, that doctrine applies to the Board's
weighing of evidence. See 38 U.S.C. § 5107(b); 38 C.F.R. § 3.102 (2019). Here, the facts are not
in dispute; therefore, the benefit of the doubt doctrine cannot be applied. See Mariano v. Principi,
17 Vet.App. 305, 313 (2003); see also 38 U.S.C. § 7261(b)(1).
Accordingly, the Court concludes that the Board did not clearly err and provided adequate
reasons or bases for its determination that Ms. Hollie does not qualify as a surviving spouse for
DIC and survivor death pension purposes. See Dedicatoria, 8 Vet.App. at 443; Hersey, 2 Vet.App.
at 94; Gilbert, 1 Vet.App. at 53. Therefore, the Court will affirm the December 2018 Board
decision.

j

B. Motion for Oral Argument
As a final matter, the Court notes that Ms. Hollie filed a motion for oral argument on
October 23, 2019. After reviewing the motion, and because the law is dispositive in this matter,
the Court is not convinced that oral argument would materially assist in the disposition of this
appeal and will deny the motion. See Janssen v. Principi, 15 Vet.App. 370, 379 (2001) (per
6

rx
curiam); Mason v. Brown, 8 Vet.App. 44, 59 (1995); see also U.S. Vet. App. R. 34(b) ("Oral
argument normally is not granted on ... matters being decided by a single Judge.").

IV. CONCLUSION
Upon consideration of the foregoing, Ms. Hollie's motion for oral argument is denied and
the December 27, 2018, Board decision is AFFIRMED.
DATED: November 21, 2019
Copies to:
Cherrie A. Hollie
VA General Counsel (027)

7
f

S

